No. 20In the

Supreme Court of the United States
KINDERCARE EDUCATION, LLC,
Petitioner,
v.
THE SUPERIOR COURT FOR THE STATE OF
CALIFORNIA FOR THE COUNTY OF SAN
FRANCISCO, et al.,
Respondents.

On Petition for a Writ of Certiorari
to the California Court Of A ppeal

PETITION FOR A WRIT OF CERTIORARI

Thomas R. K aufman
Counsel of Record
Sheppard, Mullin, Richter & Hampton LLP
1901 Avenue of the Stars, 16th Floor
Los Angeles, CA 90067
(310) 228-3700
tkaufman@sheppardmullin.com
Counsel for Petitioner

305548

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Notwithstanding the express holding of this Court in
Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407, 1417 (2019)
(“Lamps Plus”) that the Federal Arbitration Act (“FAA”)
preempts the state common law doctrine of contra
proferentem with regard to interpreting whether an
arbitration agreement provides for arbitration of claims,
can California courts avoid consideration of Lamps Plus
and instead adhere to a contrary state appellate precedent,
Securitas Security Services USA, Inc. v. Superior Court,
234 Cal. App. 4th 1109 (2015)?

ii
LIST OF PARTIES
KinderCare Education, LLC is the petitioner to this
Court but was real party in interest in the California
appellate court.
Rochelle Westmoreland, petitioner in the California
appellate court, is a respondent in this Court.
The Superior Court of the City and County of San
Francisco, respondent in the California appellate court,
is a respondent in this Court.

iii
CORPORATE DISCLOSURE STATEMENT
KinderCare Education, LLC is a privately held
limited liability company.
Rochelle Westmoreland is an individual.

iv
RELATED CASES
Rochelle Westmoreland v. Superior Court, No.
S267332, California Supreme Court. Petition for review
denied on April 28, 2021.
Rochelle Westmoreland v. Superior Court, No.
A159824, California Court of Appeal. Dismissed on
March 5, 2021 following granting of alternative writ.
Rochelle Westmoreland v. KinderCare Education,
LLC, CGC-19-573125, San Francisco County Superior
Court. Action is pending.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
I.

The Westmoreland Lawsuit . . . . . . . . . . . . . . . . . 4

II. Plaintiff’s Arbitration Agreement with
KinderCare . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
III. The Trial Court Granted a Motion to
Compel Arbitration of Non-PAGA Claims  . . . . . 7

vi
Table of Contents
Page
IV. The Cour t of Appeal Reversed and
the California Supreme Court Denied
Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 10
I.

State Courts Should Not Be Allowed to
Ignore Lamps Plus’s Holding Rejecting
t he Use of Co ntr a Pr oferent em i n
Interpreting an Arbitration Agreement
and Arbitrability of a Dispute . . . . . . . . . . . . . . . 10

II. The Court Should Grant Review to Resolve
the Dispute Between State Appellate and
United States Supreme Court Decisions on
an Important and Recurring Issue . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

vii
TABLE OF APPENDICES
Page
APPENDIX A — ORDER DENYING REVIEW IN
THE SUPREME COURT OF CALIFORNIA,
COURT OF APPEAL, FIRST APPELLATE
DISTRICT, FILED APRIL 28, 2021 . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE COURT OF
APPEAL OF THE STATE OF CALIFORNIA,
FIRST APPELLATE DISTRICT, DIVISION
TWO, FILED JANUARY 29, 2021 . . . . . . . . . . . . . . 2a
APPENDIX C — OPINION OF THE SUPERIOR
COURT OF CALIFORNIA, COUNTY OF SAN
FRANCISCO, FILED JANUARY 13, 2020 . . . . . . 5a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407 (2019)  . . . . . . . . . . . . . . . . . . . . . passim
Mastrobuono v. Shearson Lehman Hutton, Inc.,
514 U.S. 52 (1995)  . . . . . . . . . . . . . . . . . . . . . 3, 9, 12, 14
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc.,
105 S. Ct. 3346 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . 11
Securitas Security Services USA, Inc. v.
Sup. Court,
234 Cal. App. 4th 1109 (2015) . . . . . . . . . . . . . . . passim
Sonic-Calabasas A., Inc. v. Moreno,
57 Cal. 4th 1109 (2013)  . . . . . . . . . . . . . . . . . . . . .  11, 13
Sonic-Calabasas A., Inc. v. Moreno,
132 S. Ct. 496 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Statutes and Other Autorities
9 U.S.C. § 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
California Labor Code §§ 201-203 . . . . . . . . . . . . . . . . . . 4

ix
Cited Authorities
Page
California Labor Code § 211 . . . . . . . . . . . . . . . . . . . . . . . 4
California Labor Code § 212 . . . . . . . . . . . . . . . . . . . . . . . 4
California Labor Code § 2698 . . . . . . . . . . . . . . . . . . . . . . 4

1
K inderCa re Education, LLC (“K inderCa re”)
respectfully petitions for a writ of certiorari to review the
order of the California court of appeal.
OPINIONS BELOW
The order of the California court of appeal being
challenged (Appendix B, pp. 2a-4a) and the order of the
California Supreme Court denying KinderCare’s petition
for discretionary review (Appendix A, p. 1a) are both
unreported.
JURISDICTION
The California court of appeal issued its unpublished
order for an alternative writ on January 29, 2021 (which
the trial court complied with on March 4, 2021). The
California Supreme Court issued its order denying
KinderCare’s petition for discretionary review on April
28, 2021. This Court has jurisdiction under 28 U.S.C.
§ 1257(a).
STATUTORY PROVISION INVOLVED
Title 9 United States Code, Section 2
Validity, irrevocability, and enforcement of
agreements to arbitrate.
A written provision in any maritime transaction
or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or
transaction, or the refusal to perform the whole

2
or any part thereof, or an agreement in writing
to submit to arbitration an existing controversy
arising out of such a contract, transaction,
or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist
at law or in equity for the revocation of any
contract.
STATEMENT OF THE CASE
California courts have frequently evinced hostility to
arbitration. Over the past three decades, this Court has
repeatedly reversed decisions from California courts that
have been hostile to arbitration and have refused to follow
this Court’s direction concerning the interpretation and
pre-emptive scope of the Federal Arbitration Act (“FAA”).
This case provides another example, where the
California courts have decided simply to disregard without
explanation the controlling Supreme Court decision in
Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407, 1417 (2019)
(“Lamps Plus”). The Court in Lamps Plus held that, when
a court is deciding whether an arbitration agreement
is enforceable, the FAA’s doctrines for interpreting
arbitration agreements displace contrary state law
doctrines—including the particular doctrine of contra
proferentem. That state law doctrine is at direct odds with
the FAA doctrine that where an arbitration agreement
reasonably can be construed as permitting arbitration,
ambiguities should be construed in favor of arbitration
irrespective of which party drafted the agreement.
Here, after the trial court correctly recognized that
the arbitration agreement allowed for arbitration of claims
(except for claims under the Private Attorneys General

3
Act (“PAGA”) that were not at issue in the motion to compel
arbitration), the court of appeal nonetheless issued a writ
of mandate holding that none of the claims in the case were
subject to arbitration. It drew this conclusion based on its
construction of the portions of the arbitration agreement
addressing the impact of the presence of PAGA claims
on arbitration of other claims. Specifically, the court of
appeal held that the agreement should be interpreted as
banning arbitration of any claims if the complaint at issue
contained a PAGA claim.
Despite this ultimate conclusion, the court of appeal
conceded that the arbitration agreement could be read in
two reasonable ways, one which would have supported the
trial court’s order compelling arbitration and the other
which would have led to a denial of the motion to compel
arbitration. Relying on a pre-Lamps Plus appellate
decision, Securitas Security Services USA, Inc. v. Sup.
Court, 234 Cal. App. 4th 1109 (2015) (“Securitas”), which in
turn purported to rely upon a 30-year-old Supreme Court
case, Mastrobuono v. Shearson Lehman Hutton, Inc., 514
U.S. 52 (1995), the court of appeal held that because the
employer drafted the arbitration agreement, the state law
doctrine of contra proferentem required any ambiguity to
be construed against it. Although KinderCare brought the
Lamps Plus opinion to the court of appeal’s attention and
explained how Lamps Plus required the opposite result,
the court of appeal did not even acknowledge the existence
of Lamps Plus in its ruling, and it further summarily
denied a petition for rehearing that expressly called out
that it had not taken Lamps Plus into account even though
it was controlling and on point. As such, the court of appeal
did not even attempt to distinguish a controlling authority
from this Court on FAA interpretation.

4
Supreme Court review is necessary to address the
conflict between the Securitas decision and the Lamps
Plus decision on the use of the contra proferentem
doctrine to determine whether claims are arbitrable under
ambiguous arbitration agreements governed by the FAA.
Because this is a simple matter of federal supremacy on
a federal issue (the preemptive effect of the FAA), the
Court can summarily address this issue, as it did in SonicCalabasas A., Inc. v. Moreno, 132 S. Ct. 496 (2011), by
vacating the state court order and instead ordering that
the state court reconsider the issue in light of Lamps Plus.
I.

The Westmoreland Lawsuit

On January 24, 2019, individually and on behalf of
other purportedly similarly situated employees, Rochelle
Westmoreland (“Plaintiff”) filed a putative class action
complaint against KinderCare in the superior court of
the State of California, County of San Francisco, case no.
CGC-19-573125 (the “Complaint”). (Petitioner’s Appendix
of Exhibits in Support of Petition for Peremptory Writ of
Mandate (“Writ Appendix”) at 1.) On February 26, 2019,
Plaintiff filed a first amended complaint (“FAC”) adding
PAGA claims pursuant to Labor Code Section 2698 et.
seq. (Writ Appendix at 10-20).
The FAC asserts class claims for relief arising out of
the Plaintiff’s alleged receipt of an electronic pay card
at the time of her termination. Accordingly, Plaintiff
asserts class claims for violation of California Labor
Code Sections 201-203, 211, and 212. Plaintiff seeks to
represent a putative class of “[a]ll former employees who
were employed by Defendants in the State of California
at any time from January 24, 2016, through the present,

5
whose employment was separated for any reason . . . and
during their employment was paid their wages via a nonpaycard method but upon their separation of employment
received their final wages in the form of a paycard” (the
“Putative Class”). (Writ Appendix at 4 and 13).
Plaintiff also filed PAGA representative claims based
on alleged violations of California Labor Code Sections
201-203, 212, and 213 arising from the allegedly unlawful
practice of issuing electronic paycards as final payment
of wages. (Writ Appendix at 18).
II. Plaintiff’s Arbitration Agreement with KinderCare
Plaintiff signed an arbitration agreement when
she became a KinderCare employee. The following are
pertinent parts of that agreement. (Writ Appendix at
55-58).
First, the arbitration agreement expressly states that
it is governed by the FAA (and nobody has disputed that
point). (Writ Appendix at 58).
Second, the agreement defines the scope of “covered
claims.” (Writ Appendix at 55). With some specific
exceptions, covered claims include all employment related
claims and, more specifically, wage and hour claims, such
as those that KinderCare sought to compel to arbitration.
Third, the agreement provides that “covered claims”
do not include “claims that cannot be required to be
arbitrated as a matter of law.” (Writ Appendix at 55,
emphasis added.) Nobody in this action disputes that,
under governing California Supreme Court authority,

6
PAGA claims are a type of claim that an employer cannot
require employees to submit to arbitration through a predispute arbitration agreement (which is why KinderCare
did not seek to compel the PAGA claims to arbitration).
Fourth, the agreement provides that the arbitration
will be only on an individual basis and that the employee
waives “to the maximum extent permitted by law” the right
to participate in “any class, collective, or representative
proceeding.” (Writ Appendix at 56).
Fifth, the agreement contains a “Savings Clause
and Conformity Clause,” which addresses what occurs
when specific provisions of the agreement are deemed
unenforceable:
If any provision of this agreement is determined
to be unenforceable or in conf lict with a
mandatory provision of applicable law, it shall
be construed to incorporate any mandatory
prov ision, a nd /or th e un enfo rceabl e o r
conflicting provision shall be automatically
severed and the remain of the agreement shall
not be affected. Provided, however, that if
the Waiver of Class and Collective Claims is
found to be unenforceable, then this agreement
is invalid and any claim brought on a class,
collective or representative basis must be filed
in a court of competent jurisdiction, and such
court shall be the exclusive forum for such
claims.
(Writ Appendix at 58, emphasis added).

7
III. The Trial Court Granted a Motion to Compel
Arbitration of Non-PAGA Claims
KinderCare subsequently moved to compel arbitration
of Plaintiff’s non-PAGA claims on an individual basis.
KinderCare did not move to compel arbitration of the
PAGA claims, as KinderCare understood that PAGA
claims are not arbitrable. The trial court ultimately
compelled arbitration of Plaintiff’s non-PAGA claims on an
individual basis as KinderCare had requested. (App. C).
IV. The Court of Appeal Reversed and the California
Supreme Court Denied Review
Plaintiff filed a petition for writ of mandate on March
23, 2020 on the basis that the trial court’s decision
allegedly ran counter to a state appellate precedent,
Securitas Security Services USA, Inc. v. Sup. Court, 234
Cal. App. 4th 1109 (2015). After considering preliminary
opposition, the court of appeal issued an alternative writ
of mandate on January 29, 2021 directing the trial court
to vacate its order compelling arbitration and instead
order that no part of the action was arbitrable. (App. A).
The court of appeal examined the above-listed
provisions of the arbitration agreement and expressly
recognized an “acknowledged ambiguity” in the scope of
the arbitration clause arising from the “Savings Clause
and Conformity Clause” at page 4 of the agreement.
Although the court of appeal’s decision was rather terse,
it appears the court of appeal recognized that one possible
construction of the arbitration agreement was to require
that class claims that are otherwise subject to arbitration
must be sent to individual arbitration, while PAGA claims,

8
which as a matter of law are not subject to pre-dispute
arbitration agreements, must proceed in court. Under this
interpretation, the arbitration agreement would have been
invalidated only to the extent it called for arbitration of
claims not subject to arbitration as a matter of law, and
an employee’s mere assertion of a PAGA claim within a
lawsuit of otherwise arbitrable claims was insufficient to
invalidate the arbitration agreement as a whole.
An alternative interpretation favored by Plaintiff,
however, was to constr ue the enti re a rbitration
agreement as becoming inoperative in the face of a PAGA
representative claim regardless of any other aspect of the
lawsuit. In other words, if PAGA claims were deemed to be
within the scope of the Agreement despite the language
that the agreement did not apply to claims that are not
arbitrable as a matter of law, and if the Savings Clause
and Conformity Clause invalidated the entire arbitration
agreement to the extent a court ruled that a PAGA
representative claim could not lawfully be compelled to
arbitration on an individual basis, then it would follow
that the motion to compel arbitration should have been
denied in total.1
From the bare premise of two reasonable constructions
of the agreement’s terms concerning the scope of arbitrable
claims, the court of appeal held that interpretation of the
agreement favored by Plaintiff must control based on the
common law doctrine of contra proferentem. The court of
appeal held that this result flowed necessarily from the
Securitas precedent:
1. For purposes of this Petition, KinderCare does not
dispute that there are two possible constructions of the arbitration
agreement, both of which could be deemed reasonable.

9
The acknowledged ambiguity in the Savings
Clause and Conformity Clause should be
resolved against [KinderCare], the party that
drafted the arbitration agreement, Securitas
Security Services USA, Inc. v. Superior Court
(2015) 234 Cal. App. 4th 1109, 1126, citing
Mastrobuono v. Shearson Lehman Hutton,
Inc. (1995) 514 U.S. 52, 62.) So construed, the
unenforceable PAGA waiver is not severable
from the rest of the agreement and, therefore,
renders the entire agreement unenforceable.
Securitas Security Services USA, Inc., supra,
at pp. 1123-1127).
(App. A at 1-2).
The writ decision made no reference to the 2019
Supreme Court decision in Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407, 1417 (2019), notwithstanding that:
(1) KinderCare brought the case to the court of appeal’s
attention in its preliminary opposition to the writ petition;
(2) Lamps Plus expressly rejects the use of contra
proferentem in deciding the issue whether a dispute is
subject to arbitration on the ground that the state law
doctrine is preempted by contrary FAA interpretative
doctrine; and (3) Lamps Plus is both more recent than
Securitas and, as Supreme Court authority, it overrules
any contrary state law decision on the topic of FAA
preemption.
On March 4, 2021. the trial court stated its intent
to comply with the alternative writ, which led to the
writ being discharged. (Order Complying With Court of
Appeal’s Alternative Writ of Mandate).

10
On February 8, 2021, KinderCare filed a petition
for rehearing that was summarily denied on February
17, 2021. KinderCare then petitioned for review in the
California Supreme Court, which summarily denied
review on April 28, 2021. (App. B). Thus, KinderCare has
exhausted all avenues of state court review.
REASONS FOR GRANTING THE PETITION
I.

State Courts Should Not Be Allowed to Ignore
Lamps Plus’s Holding Rejecting the Use of Contra
Proferentem in Interpreting an Arbitration
Agreement and Arbitrability of a Dispute

The common law doctrine of “contra proferentem”—
i.e., that ambiguous contracts are to be construed against
the drafter—is an established doctrine within California
state contract law. See Lamps Plus, 139 S. Ct. at 1417. In
Lamps Plus, the employee signed an arbitration agreement
that contained no express reference to class arbitration,
but it stated that “all claims” arising out of employment
would be subject to arbitration. The Ninth Circuit had
relied on the contra proferentem doctrine to construe the
arbitration agreement against an employer’s proffered
construction and in favor of the employee’s proposed
construction. The Ninth Circuit adopted an interpretation
that the agreement allowed for class arbitration as part of
the “all claims” clause (as the employee argued) in favor
of the employer’s argument that the agreement allowed
only for individual arbitration because it was silent on
class procedures. Id. at 1413. Nobody disputed, however,
that the action was subject to arbitration.

11
The United States Supreme Court reversed the Ninth
Circuit and expressly held that the state law contra
proferentem rule was preempted by the FAA and was
replaced by the FAA doctrines governing construction
of arbitration agreements. The specific FAA doctrine
that the Ninth Circuit’s interpretation had offended was
that arbitration was a product of consent, and it was
improper to assume in the absence of express statement
that an employer would consent to class arbitration,
which the Court held to be fundamentally different from
the type of arbitration contemplated by the FAA. Id. at
1415-16. The Court also recognized another fundamental
FA A doctrine “that ambiguities about the scope of
an arbitration agreement must be resolved in favor of
arbitration.” Id. at 1418 (citing Mitsubishi Motors Corp.
v. Soler Chrysler-Plymouth, Inc., 105 S. Ct. 3346 (1985)).
The Court did not limit its holding simply to the issue of
whether an agreement should be interpreted to allow for
class or individual arbitration, but couched its decision as
one where FAA-specific interpretative doctrines preempt
contrary state law doctrines. Id.
The Securitas decision to which the court of appeal
cited is a pre-Lamps Plus state appellate decision that
must give way to Lamps Plus on the federal issue of FAA
preemption. See Sonic-Calabasas A., Inc. v. Moreno,
57 Cal. 4th 1109, 1124 (2013) (recognizing U.S. Supreme
Court’s ability to overrule even California Supreme Court
on issues of FAA preemption). Although Securitas cites
to a decade old Supreme Court decision (Mastrobuono),
nothing in Mastrobuono addressed how to construe a
provision in an arbitration agreement that was ambiguous
as to whether claims were arbitrable.

12
Instead, the dispute in Mastrobuono was over a
collateral issue of whether the arbitration agreement
gave the arbitrator authority to impose punitive damages
despite New York state law doctrines depriving arbitrators
of the right to award them. After finding that the New
York law was preempted, the Court resolved the issue of
the arbitrator’s power to award punitive damages using
standard contract interpretation principles. See 514 U.S.
55-63. Key to the discussion was the fact that whether
or not the arbitrator had the power to impose punitive
damages did not conflict with any FAA doctrines, so the
use of ordinary contract principles was entirely consistent
with the FA A. Indeed the Court in Mastrobuono
reiterated the applicability of the general FAA doctrine
that “ambiguities as to the scope of the arbitration clause
itself [are] resolved in favor of arbitration.” Id. at 62.
Applying the same reasoning here requires that,
to the extent there are ambiguities as to whether the
non-PAGA claims are subject to arbitration, those
ambiguities must be construed in favor of arbitration if
they reasonably could be so construed, regardless of who
drafted the arbitration agreement. The FAA doctrine thus
displaces the generalized common law contra proferentem
doctrine. This understanding of Lamps Plus is squarely
inconsistent, however, with the court of appeal’s reasoning
in issuing the writ of mandamus because the court of
appeal construed the ambiguity against finding claims
to be arbitrable despite acknowledging that it would
be plausible to interpret the agreement as requiring
arbitration of the non-PAGA claims.

13
II. The Court Should Grant Review to Resolve the
Dispute Between State Appellate and United States
Supreme Court Decisions on an Important and
Recurring Issue
The primary reason for this Court to grant review is
to settle a dispute among decisions where the underlying
issue is recurrent. The California courts of appeal seem
to generate new published decisions on the arbitrability
of disputes every few weeks, and the topic of arbitrability
in class and collective actions has generated multiple
California Supreme Court decisions and half a dozen
United States Supreme Court decisions just since 2010.
As such, courts of appeal plainly are in need of ongoing
guidance as to how to interpret arbitration agreements
that are potentially ambiguous as to whether they require
arbitration of the claims asserted.
Here, there can be no doubt that there is an
inconsistency between the reasoning employed by the
court of appeal in Securitas and the holding of the
United States Supreme Court in Lamps Plus. Because
this dispute involves an issue of FAA preemption, the
United States Supreme Court should have the final word
and should be followed in all cases. See Sonic-Calabasas,
57 Cal. 4th at 1124 (recognizing United States Supreme
Court’s supremacy over state law on the issue of FAA
preemption). As such, if this Court agrees that Securitas
and Lamps Plus are at odds on the issue of the use of
contra proferentem to address arbitrability of disputes,
it must resolve this dispute, clarify this important area
of law, and provide guidance to state courts on the FAA
preemption issue.

14
Furthermore, the California courts take the position
that using contra proferentem is required by the Supreme
Court’s Mastrobuono decision, when that plainly is not
the case when the doctrine is inconsistent with the FAA.
As such, the Court can also clarify its own precedents
and explain how Lamps Plus is readily harmonized
with Mastrobuono, but neither case allows state law to
contravene FAA interpretative doctrines.
In the absence of this Court’s intervention, California
appellate courts will continue to rely on Securitas/
Mastrobuono as a mechanism to invalidate properly
enforceable arbitration agreements in violation of the
strong federal policy in favor of arbitration.
The court of appeal’s error is manifest from reviewing
the record below and is a candidate for summary reversal
without need of a hearing. Accordingly, KinderCare
respectfully requests that this Court grant review to
summarily remand the case back to the California Courts
with instructions to reconsider in light of Lamps Plus.

15
CONCLUSION
For all these reasons, KinderCare respectfully urges
the Court to grant this petition for writ of certiorari.
Respectfully submitted
Thomas R. K aufman
Counsel of Record
Sheppard, Mullin, Richter & Hampton LLP
1901 Avenue of the Stars, 16th Floor
Los Angeles, CA 90067
(310) 228-3700
tkaufman@sheppardmullin.com
Counsel for Petitioner

APPENDIX

1a
AppendixDENYING
A
APPENDIX A — ORDER
REVIEW
IN THE SUPREME COURT OF CALIFORNIA,
COURT OF APPEAL, FIRST APPELLATE
DISTRICT, FILED APRIL 28, 2021
Court of Appeal, First Appellate District,
Division Two - No. A159824
S267332
IN THE SUPREME COURT OF CALIFORNIA
En Banc
ROCHELLE WESTMORELAND, as an individual and
on behalf of all others similarly situated,
Petitioner,
v.
SUPERIOR COURT OF CITY AND COUNTY OF
SAN FRANCISCO,
Respondent;
KINDERCARE EDUCATION, LLC,
Real Party in Interest.
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

2a
Appendix OF
B THE COURT OF
APPENDIX B — OPINION
APPEAL OF THE STATE OF CALIFORNIA, FIRST
APPELLATE DISTRICT, DIVISION TWO, FILED
JANUARY 29, 2021
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA, FIRST APPELLATE DISTRICT
DIVISION TWO
(San Francisco County Super. Ct. No. CGC-19-573125)
ROCHELLE WESTMORELAND, AS AN
INDIVIDUAL AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,
Petitioner,
v.
THE SUPERIOR COURT OF
SAN FRANCISCO COUNTY,
Respondent;
KINDERCARE EDUCATION, LLC,
Real Party in Interest.
BY THE COURT:
The court has conducted a detailed review of the record
and the parties’ briefing regarding this petition, which
concerns respondent superior court’s January 13, 2020
order granting Real Party in Interest’s motion to compel

3a
Appendix B
arbitration and request for stay. Our review indicates
the superior court erred by granting the motion and stay
of Petitioner’s PAGA claim. Although the superior court
correctly concluded the PAGA waiver is unenforceable,
it erred by severing the unenforceable PAGA waiver
from the remainder of the Waiver of Class and Collective
Claims and the remainder of the arbitration agreement.
The acknowledged ambiguity in the Savings Clause
& Conformity clause should be resolved against Real
Party in Interest, the party that drafted the arbitration
agreement. (Securitas Security Services USA, Inc. v.
Superior Court (2015) 234 Cal.App.4th 1109, 1126, citing
Mastrobuono v. Shearson Lehman Hutton, Inc. (1995)
514 U.S. 52, 62.) So construed, the unenforceable PAGA
waiver is not severable from the rest of the agreement and,
therefore, renders the entire agreement unenforceable.
(Securitas Security Services USA, Inc., supra, at pp.
1123-1127.)
Therefore, let an alternative writ of mandate issue
commanding respondent San Francisco County Superior
Court, in the above-captioned case, to set aside and
vacate its January 13, 2020 “Order Granting Defendant’s
Motion to Compel Arbitration and Request for Stay” and
enter a new order denying the motion in its entirety. In
the alternative, respondent superior court may appear
and show cause before Division Two of this court why a
peremptory writ of mandate should not be granted.
If respondent superior court complies with this court’s
directive on or before February 19, 2021, the court will
discharge the alternative writ and dismiss the petition

4a
Appendix B
as moot. The superior court is advised that it must give
the parties notice and an opportunity to be heard before
issuing a new order in response to the alternative writ.
(See Brown, Winfield & Canzoneri, Inc. v. Superior Court
(2010) 47 Cal.4th 1233, 1250, fn. 10 [“if a trial court is
considering changing an interim order in response to an
alternative writ, it must give the respective parties notice
and an opportunity to be heard.”].)
Petitioner shall inform this court by letter of
respondent court’s decision as soon as possible. Should
respondent court choose not to follow the above procedure,
but instead to appear and show cause before this court
why a peremptory writ of mandate should not issue, this
matter will be heard before Division Two when ordered
on calendar.
The alternative writ is to be issued, served and filed
on or before January 29, 2021, and shall be deemed served
upon mailing by the clerk of this court of a certified copy of
the alternative writ and this order to respondent superior
court. A written return shall be served and filed on or
before March 5, 2021, and a reply to the return shall be
served and filed on or before March 12, 2021. (Cal. Rules
of Court, rule 8.487(b).) If, however, respondent superior
court complies with the alternative writ, and proof thereof
is filed herein on or before March 2, 2021, then no return or
reply need be filed, the alternative writ will be discharged
and the petition will be dismissed as moot.
Date 01/29/2021 		

Kline, P.J.

5a
AppendixOF
C THE SUPERIOR
APPENDIX C — OPINION
COURT OF CALIFORNIA, COUNTY OF SAN
FRANCISCO, FILED JANUARY 13, 2020
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
DEPARTMENT 613
ROCHELLE WESTMORELAND, individually, and on
behalf of all others similarly situated,
Plaintiff,
v.
KINDERCARE EDUCATION LLC.,
and DOES 1 through 50, inclusive,
Defendants.
Case No. CGC-19-573125
ORDER GRANTING DEFENDANT’S
MOTION TO COMPEL ARBITRATION
AND REQUEST FOR STAY
INTRODUCTION
This matter came on regularly for hearing on
January 8, 2020 in Department 606, the Honorable
Andrew Y.S. Cheng, presiding. Larry Lee appeared for
plaintiff Rochelle Westmoreland and the Class. Rishi Puri
appeared for defendant Kindercare Education LLC.

6a
Appendix C
Having reviewed and considered the arguments,
pleadings, and written submissions of all parties, the
Court grants Defendant’s (1) motion to compel arbitration
of all of Plaintiffs individual claims (with the exception
of her PAGA claim) and (2) request for stay ofPlaintiffs
PAGA claim.
BACKGROUND
On January 24, 2019, Plaintiff Rochelle Westmoreland
(“Plaintiff’), individually and on behalf of all others
similarly situated, filed this putative class action against
Defendant Kindercare Education LLC (“Defendant”)
asserting violations of Labor Code sections 201-203, 212213. On February 26, 2019, Plaintiff filed a first amended
complaint [“FAC”] adding claims pursuant to Labor Code
§ 2698 et seq., “Private Attorneys General Act” (“PAGA”).
(See FAC ¶¶ 36-41.)
As part of its business, Defendant recruits and hires
employees using a program called “Taleo” to manage
and track employee hiring data. (See FAC ¶ 4; see also
Declaration of Karin Campbell-Moore in Support of
Defendant Kindercare Education LLC’s Motion to Compel
Arbitration and Stay [“Campbell-Moore Decl.”] ¶ 2.) On
April 25, 2016, Defendant sent Plaintiff an electronic offer
letter for the position of Center Director. (See CampbellMoore Decl. ¶ 7; see also Motion, 3.) After Plaintiffs
acceptance of Defendant’s offer letter, Defendant sent
Plaintiff an e-mail through Taleo with a link to complete
the “onboarding” process. (See ibid.) Taleo presented
Plaintiff with a series of tasks to complete, including to

7a
Appendix C
review and execute the “Mutual Arbitration Agreement
Regarding Wages and Hours” [“Arbitration Agreement”].
(See Campbell-Moore Decl. ¶ 8; see also Motion, 3.)
Plaintiff was able to review the agreement at her leisure
and was able to print the arbitration agreement prior to
execution. (See Campbell-Moore Decl. ¶ 9; see also Motion,
3.) On April 25, 2019, Plaintiff executed the Arbitration
Agreement. (See ibid.)
The pertinent provisions of the Arbitration
Agreement are as follows:
• “‘Covered Claims’ under this agreement do
not include claims alleging discrimination,
harassment, or retaliation. Also excluded
from this agreement are any claims for
employee benef its under KU’s plans
governed by the Employee Retirement
Income Security Act (“ERISA”), as well
as any claims that cannot be required
to be arbitrated as a matter of law . . .
KU and I understand and agree that
arbitration is the only litigation forum for
resolving covered claims and that we are
both waiving the right to a trial before a
judge or jury in federal or state court in
favor of arbitration . . . .” (Campbell-Moore
Decl., Ex. A [“Arb. Agreement”] [emphasis
supplied], 1.)
• “Waiver of Class and Collective Claims.
KU and I also agree that covered claims
will be arbitrated only on an individual

8a
Appendix C
basis and that both KU and I waive the
right to participate in or receive money or
any other relief, to the maximum extent
permitted by law, from any class, collective,
or representative proceeding.” (Id. at 2
[emphasis supplied].)
• “Savings Clause & Conformity Clause.
If any provision of this agreement is
determined to be unenforceable or in
conf lict with a mandatory provision of
applicable law, it shall be construed to
incorporate any mandatory provision,
and/or the unenforceable or conflicting
provision shall be automatically severed
and the remainder of the agreement shall
not be affected. Provided, however, that if
the Waiver of Class and Collective Claims
is found to be unenforceable, then this
agreement is invalid and any claim brought
on a class, collective, or representative
action basis must be filed in a court of
competent jurisdiction, and such court shall
be the exclusive forum for such claims.” (See
id. at 4 [emphasis supplied].)
LEGAL STANDARD
The arbitration agreement at issue expressly states
that it is governed by the Federal Arbitration Act
(“FAA”). “The FAA reflects a ‘liberal federal policy
favoring arbitration,’ and the ‘fundamental principle that
arbitration is a matter of contract.’ Its main purpose ‘is to

9a
Appendix C
ensur[e] that private arbitration agreements are enforced
according to their terms’ and it ‘preempts any state law
rule that stand[s] as an obstacle to the accomplishment
ofthe FAA’s objectives.”’ (Da Loc Nguyen v. Applied
Medical Resources Corp. (2016) 4 Cal.App.5th 232, 245.)
Any doubts regarding the arbitrability of a dispute shall
be resolved in favor of arbitration. (Coast Plaza Doctors
Hosp. v. Blue Cross of Cal. (1999) 83 Cal.App.4th 677,
686; see also Lamps Plus, Inc. v. Varela (2019) 139 S.
Ct. 1407, 1418 [“the FAA provides the default rule for
resolving certain ambiguities in arbitration agreements.
For example, we have repeatedly held that ambiguities
about the scope of an arbitration agreements must be
resolved in favor of arbitration”].)
DISCUSSION AND ANALYSIS
I.

The Federal Arbitration Act Governs

The arbitration agreement itself states that it is
governed by the Federal Arbitration Act (“FAA’’). (See
Arb. Agreement, 4 [“Controlling Law”].) Further, Plaintiff
does not dispute that the FAA governs. (Compare Motion,
4-5 with Plaintiff’s Opposition to Defendant’s Motion to
Compel Arbitration [“Opp.”], 4:19-21.)
II. The Waiver of Class and Collective Claims Includes
an Unenforceable PAGA Waiver
a.

Background Law

A representative action brought under PAGA
“authorizes an employee to bring an action for civil

10a
Appendix C
penalties on behalf of the state against his or her
employer for Labor Code violations committed against the
employee and fellow employees, with most of the proceeds
of that litigation going to the state.” (Iskanian v. CLS
Transportation Los Angeles, LLC (2014) 59 Cal.4th 348,
360.) “[T]he Legislature’s purpose in enacting the PAGA
was to augment the limited enforcement capability of the
Labor and Workforce Development Agency by empowering
employees to enforce the Labor Code as representatives
of the Agency.” (Id. at 383.) “[A]n employee’s right to
bring a PAGA action is unwaivable.” (Id. at 383.) First,
“[b]ecause such an agreement has its ‘object, . . .
indirectly, to exempt [the employer] from responsibility
for [its] own . . . violation of law,’ it is against public policy
and may not be enforced.” (Id. [quoting Cal. Civ. Code
§ 1668].) Second, “[s]uch an agreement also violates Civil
Code section 3513’s injunction that ‘a law established
for a public reason cannot be contravened by a private
agreement.”’ (Id. quoting Cal. Civ. Code§ 3513.) “[T]he
rule against PAGA waivers does not frustrate the FAA’s
objectives because [] the FAA aims to ensure an efficient
forum for the resolution of private disputes, whereas a
PAGA action is a dispute between an employer and the
state Labor and Workforce Development Agency.” (Id. at
384 [emphasis in original].)
b.

Analysis

Plaintiff argues because the Arbitration Agreement
covers claims for “penalties, or any other claimed violation
of wage-and-hour practice or procedures under local,
state, or federal statutory or common law” and precludes
such. claims from being brought on a representative

11a
Appendix C
action basis, the A rbitration Agreement illegally
compels arbitration of PAGA claims, rendering the entire
agreement unenforceable. (See Opp., 8; see also Arb.
Agreement, 1 [“Covered Claims”], 2 [“Waiver of Class
and Collective Claims”].)
As Plaintiff highlights, “Iskanian and its progeny
preclude any waiver of an employee’s right to bring a
PAGA action.” (Opp., 6; see also Iskanian, supra, 59
Cal.4th at 383-384.) A PAGA action is a representative
action brought by an aggrieved employee on behalf of the
state. (See Iskanian, supra, 59 Cal.4th at 360; see also
Arb. Agreement, 2 [Waiver of Class and Collective Claims
including “representative proceedings”].) Thus, inasmuch
as the Waiver of Class and Collective Claims contained in
the Arbitration Agreement seeks to eliminate or abridge
Plaintiffs right to litigate PAGA claims in a representative
capacity, the Court finds the waiver to be invalid.” (See
id at 1123.)
III. The Unenforceable PAGA Waiver Does Not
Invalidate the Entire Agreement
a.

Background Law

“A policy provision will be considered ambiguous
when it capable of two or more constructions, both of
which are reasonable . . . [D]isagreement concerning the
meaning of a phrase, or the fact that a word or phrase
isolated from its context is susceptible of more than one
meaning [does not make it ambiguous].” (Powerine Oil
Co., Inc. v. Sup. Ct. (2005) 37 Cal.4th 377, 390 [quotations
and citations omitted].) “[L]anguage in a contract must be

12a
Appendix C
construed in the context of the instrument as a whole, and
the circumstances of that case, and cannot be found to be
ambiguous in the abstract.” (Bank of the West v. Sup. Ct.
(1992) 2 Cal.4th 1254, 1265 [italics, quotations, and citation
omitted] [emphasis supplied].)
b.

Analysis
1.

The Savings Clause & Conformity Clause

Because the PAGA waiver is unenforceable as a
matter of law, the Savings Clause & Conformity Clause
applies. (See Arb. Agreement, 4.) The Savings Clause &
Conformity Clause provides:
“If a ny prov ision of th is ag reement is
determined to be unenforceable or in conflict
with a mandatory provision of applicable
law, it shall be construed to incorporate any
mandatory provision, and/or the unenforceable
or conflicting provision shall be automatically
severed and the remainder of the agreement
shall not be affected. Provided, however, that
if the Waiver of Class and Collective Claims is
found to be unenforceable, then this agreement
is invalid and any claim brought on a class,
collective, or representative action basis must
be filed in a court of competent jurisdiction,
and such court shall be the exclusive forum for
such claims.”
(Arb. Agreement, 4 [emphasis supplied].) Defendant
contends that the capitalization of the exact name of the

13a
Appendix C
clause (i.e. “Waiver of Class and Collective Claims”) in
the Savings Clause & Conformity Clause demonstrates
that the second sentence is triggered only when the
entirety of the Waiver of Class and Collective Claims
is unenforceable. Plaintiff asserts (1) the first sentence
of the Savings Clause & Conformity Clause discusses
severability of any provision of the agreement, and (2)
the second sentence operates as a “poison pill”, which
“mandates that if any part of [the] Waiver of Class
and Collective Claims provision is unenforceable, then
Defendant itself wants the entire Arbitration Agreement
voided, as opposed to just a portion of the agreement.”
To support her argument, Plaintiff contends that the
Savings Clause & Conformity Clause is analogous to the
nonseverability clause in Securitas Security Services
USA, Inc. v. Sup. Ct. (2015) 234 Cal.App.4th 1109,1125.
(See Opp. at 9.) In Securitas, Paragraph No.4 of the
dispute resolution agreement provided:
“[T]here will be no right or authority for any
dispute to be brought, heard or arbitrated
as a class, collective or representative action
(‘Class Action Waiver’). Notwithstanding any
other clause in this agreement, the preceding
sentence shall not be severable from this
Agreement in any case in which the dispute to
be arbitrated is brought as a class, collective or
representative action.”
(Id. at 1114 [emphasis supplied].) The Securitas Court
concluded that Paragraph No.4 “unambiguously reflect[ed]
the parties’ intent that where a disput is subject to

14a
Appendix C
the arbitration agreement [] and is ‘brought as a class,
collective or representative claim’ [], the provision waiving
such claims, even if later determined to be illegal or
unenforceable, cannot be severed from the remainder
of the agreement . . . [n]otwithstanding any other
clause in the agreement.” (See id. at 1126.) Because the
unenforceable PAGA waiver was not severable, the Court
held that the dispute resolution agreement at issue was
unenforceable in its entirety. (See id. at 1127.)
The following language in Securitas, Paragraph
No.4 was significant: “[n]otwithstanding any other
clause in this agreement, the preceding sentence shall
not be severable from this agreement[.]” (Id. at 1125.),
Dissimilar to Paragraph No. 4 in Securitas, the Savings
Clause & Conformity Clause does not explicitly nullify
the application of other clauses in the Arbitration
Agreement to the Waiver of Class and Collective Claims.
(See Arbitration Agreement, 4.) Instead, the Savings
Clause & Conformity Clause provides that if the Waiver
of Class and Collective Claims is unenforceable, then
the entire agreement is invalid, without specifying
whether the entire waiver or any portion of the waiver
must be deemed unenforceable to render the Arbitration
Agreement invalid.
In isolation, because the Savings Clause & Conformity
Clause does not unambiguously address the applicability
of the Arbitration Agreement’s other clauses to the Waiver
of Class and Collective Claims, it is unclear how the
“poison pill” applies where, as here, the Court determines
that the Waiver of Class and Collective Claims contains

15a
Appendix C
an unenforceable PAGA waiver.
2.

The Arbitration Agreement in its Entirety

Despite the Savings Clause & Conformity Clause’s
apparent ambiguity when examined in isolation, the Court
must consider the Arbitration Agreement as a whole.
(See Bank of the West, supra, Cal.4th at 1265.) When
considered in its entirety, the Arbitration Agreement
shows that the parties intended to limit the agreement
(including the Waiver of Class and Collective Claims) to
the bounds of the law. (See Reply, 7.)
First, the plain language of the Waiver of Class and
Collective Claims expresses an intent that the waiver
only be enforced “to the maximum extent permitted by
law[.]” (Arb. Agreement, 2 [emphasis supplied].) Second,
the Waiver of Class and Collective Claims specifies that
“covered claims will be arbitrated.” (Id.) In pertinent part,
the definition of “Covered claims” excludes “any claims
that cannot be required to be arbitrated as a matter of law.”
(Id. at 1 [emphasis supplied].) Third, the first sentence of
the Savings Clause & Conformity Clause provides that
“if any provision of this agreement is determined to be
unenforceable or in conflict with a mandatory provision
of applicable law, it shall be construed to incorporate
any mandatory provision, and/or the unenforceable or
conflicting provision shall be automatically severed and
the remainder of the agreement shall not be affected.” (See
Arb. Agreement, 4.) The Court agrees with Defendant
that collectively through the terms of these clauses, the
Arbitration Agreement invites the Court to sever any
unenforceable provisions of the Waiver of Class and

16a
Appendix C
Collective Claims which go beyond what is permitted by
law. (See Reply, 7-8.) Thus, it logically follows that the
second sentence of the Savings Clause & Conformity
Clause operates to invalidate the Waiver of Class and
Collective Claims only where the entirety of the waiver
is unenforceable.
In sum, the Arbitration Agreement as a whole
manifests the parties’ intended illegal portions of the
Waiver of Class and Collective Claims to be severable.
To the extent any ambiguity exists, it must be resolved in
favor of arbitration. (Lamps Plus, Inc. v. Varela, supra,
139 S.Ct. at 1418.)
IV. The Unenforceable PAGA Waiver is Severable and
Plaintiff’s Remaining Claims Fall Within the
Scope of the Arbitration Agreement
a.

Background Law

“[W]hether a contract is entire or separable depends
upon its language and subject matter, and this question
is one of construction to be determined by the court
according to the intention of the parties. If the contract
is divisible, the first part may stand, although, the latter
is illegal . . . [A] contract is not divisible where there is a
showing that it was the intention of the parties to treat
[their] agreement as an entire contract, and where it
appears that their engagements would not have been
entered into except upon the clear understanding that
the full object of the contract should be performed.”
(Securitas, supra, 234 Cal.App.4th at 1126 [emphasis in
original] [quotations and citations omitted].) “Courts are to

17a
Appendix C
look to the various purposes of the contract. If the central
purpose of the contract is tainted with illegality, then the
contract as a whole cannot be enforced. If the illegality
is collateral to the main purpose of the contract, and the
illegal provision can be extirpated from the contract by
means of severance or restriction, then such severance
and restriction are appropriate.” (Little v. Auto Stiegler,
Inc. (2003) 29 Cal.4th 1064, 1075.)
b.

Analysis

For the reasons discussed supra, in Part III.b., the
language, subject matter, and the intentions of the parties
clearly demonstrate that the Arbitration Agreement is
divisible. (See Securitas, supra, 234 Cal.App.4th at 1126.)
The illegal PAGA waiver is collateral to the overarching
purpose of enforcing the terms of the Arbitration
Agreement in conformity with “mandatory provision[s] of
applicable law[.]” (Arb. Agreement, 4.) As such, the PAGA
waiver is severable and the remainder ofthe Arbitration
Agreement remains enforceable.
The parties do not dispute that Plaintiffs first cause
of action alleging violations of Labor Code sections 201203 falls within the scope of the Arbitration Agreement.
(Compare Motion, 6-7 with Opp., 4 [“This Motion requires
only a review of a single case because the Arbitration
Agreement contains a ‘poison pill’ provision.”].) Further,
the claims for alleged violations of section 201-203
fall within the scope of the Arbitration Agreement.
(Compare Arb. Agreement, 1 [“Covered Claims” include
“statutory or common law legal claims alleging the
underpayment, overpayment, or mistimed payments of

18a
Appendix C
wages, expenses . . . timing or amount of pay at separation,
deduction or fee disputes, . . . claims to fines or penalties,
or any other claimed violations of wage-and-hour practices
or procedures under local, state or federal statutory or
common law.”] with FA ¶¶ 31-35 [alleging Defendant
violated the Labor Code by “failing and refusing to pay
all wages due and earned to discharged employees at the
time of their termination, or within 72 hours.”].)
Thus, Plaintiffs first cause of action brought pursuant
to Labor Code sections 201-203 is subject to the terms of
the Arbitration Agreement.
V. A Stay Is Warranted Pending Arbitration
The Court stays the action pending the outcome of
arbitration pursuant to Code of Civil Procedure § 1281.4
unless Plaintiff elects to pursue PAGA only claims in this
Court.
CONCLUSION
The Court grants Defendant’s (1) motion to compel
arbitration of all of Plaintiff’s individual claims (with the
exception of her PAGA claim) and (2) request for stay of
Plaintiff’s PAGA claim.
IT IS SO ORDERED.
Dated: January 13, 2020
/s/				
ANDREW Y.S. CHENG

19a
Appendix C
Judge of the Superior Court
SUPERIOR COURT OF CALIFORNIA
County of San Francisco
ROCHELLE WESTMORELAND, individually and on
behalf of all others similarly situated,
Plaintiff,
vs.
KINDERCARE EDUCATION LLC., and DOES 1
through 50, inclusive,
Defendants.
Case No.: CGC-19-573125
CERTIFICATE OF ELECTRONIC SERVICE
(CCP 1010.6 & CRC 2.251
I, Clark Banayad, a Deputy Clerk of the Superior
Court of the County of San Francisco, certify that I am
not a party to the within action.
On January 13, 2020, I electronically served ORDER
GRANTING DEFENDANT’S MOTION TO COMPEL
ARBITRATION AND REQUEST FOR STAY via File
& ServeXpress on the recipients designated on the
Transaction Receipt located on the File & ServeXpress
website.

20a
Appendix C
Dated: January 13, 2020
T. MICHAEL YUEN, Clerk
By: /s/				
Cla rk Ba naya d, Deput y
Clerk

